■COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

vl.i^^^Legal Briefs
Est. 923 ,

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

E-Mail Address:
contact@cocklelegalbriefs.com
Web Site
www.cocklelegalbriefs.com

No. 20Morgan Joseph Langah,
Petitioner,
v.
United States, State of Arizona,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6853 words, excluding the parts that are exempted by Supreme
Court Rule 3 3.1 (d), as needed.

Subscribed and sworn to before me this 8th day of December, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL KOTARY-State of NAraska
JBT
RENEE J. GOSS
My Comm. Exp. September 5,2023
Notary Public

v

Affiant

40173

